No.:

In
The Supreme Court of the United States

Montgomery Blair Sibley,
Petitioner,
vs.

Frank Paul Geraci Jr., Mary C. Loewenguth, and
Catherine O'Hagan Wolfe,
Respondents.

On A Petition For Writ Of Certiorari To
The United States Circuit Court for the Second Circuit

Certificate of Service of Petition for Writ of Certiorari

Montgomery Blair Sibley
Petitioner
189 Chemung Street
Corning, N.Y. 14830
(607) 301-0967
montybsibley@gmail.com
I HEREBY CERTIFY on the 2nd day of August, 2021,1 served, as agreed between counsel
as evidenced by the emails attached hereto, a true and accurate copy of the Petition for Writ of
Certiorari in the above matter by e-mail on Counsel for the Respondents, Karen Folster Lesperance,
Assistant United States Attorney at karenlesperance@usdoj.gov.
Pursuant to 28 U. S. C. § 1746, I declare under penalty of perjury under the laws of the
United States of America that the foregoing is true and correct.

Executed on August 2, 2021
Montganj
Petitioner

air Sibley

Montgomery Blair Sibley
montybsibleyj'tfgmail.com
Fri 5:17 PM
EMAIL morTlybsibloy^gmail.com
To: Karen Lesoerance
Re: Link to other people or deals ...

Sibley v. Geraci, et al.
Karen
I will be filing my Petition for Certiorari with the Supreme Court on Monday. Pursuant the
SCOTUS's April 15, 2020, strongly encouraging and authorizing service by electronic
service if the parties agree, I write to inquire if we can so agree. In that case, l will email you
the Petition on Monday. If not, I will be sending you your three copies by US Mail that day.
Please advise one way or the other at your earliest convenience.

Montgomery Blair Sibley
Karen Lesperance
krmin.1esperancom.isdQj.gov
Fn 5:38 PM (due 88m ago)

o

6

EMAIL montybsibloy^gmail com
To: Montgomery Blair Sibley
Re: Link to other people or deals ...

RE: Sibley v. Geraci, et al.

Mr. Sibley:
I consent to electronic service.
Regards
Ka ren
Karen Foister Lesperance
Assistant United States Attorney
Deputy Chief, Civil Division
U.S. Attorney’s Office
Northern District of New York
Main; (518) 431-0247
Direct: (518) 431-0242
From; Montgomery Blair Sibley <montybsibley@gmall.com>
Sent: Friday, July 30, 2021 5:17 PM
To: Lesperance, Karen (USANYN) <KLesperance@usa.doj.gov>
Subject: Sibley v. Geraci, et al.
Karen
i will be filing my Petition for Certiorari with the Supreme Court on Monday. Pursuant the
SCOTUS's April 15, 2020, strongly encouraging and authorizing service by electronic
service if the parties agree, I write to inquire if we can so agree. In that case, I will email you
the Petition on Monday. If not, I will be sending you your three copies by US Mail that day.
Please advise one way or the other at your earliest convenience.

Montgomery Blair Sibley

